OIG Investigative Reports, Former FAMU Director Pleads Guilty To Conspiracy and Theft from Federal Programs Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
US Department of Justice
Gregory R. Miller
United States Attorney
Northern District of Florida
For more information contact:
Supervisory AUSA Karen E. Rhew
(850) 942-8430
June 18, 2008
Former FAMU Director Pleads Guilty To Conspiracy and Theft from Federal Programs Charges
PANAMA CITY — Gregory R. Miller, United States Attorney for the Northern District of
Florida, announced that Patricia Walker McGill, the former director of the Institute on Urban
Policy and Commerce at the Florida Agricultural and Mechanical University (FAMU) pled guilty
today to one count of conspiracy to commit theft from Federal programs and seven counts of
theft from Federal programs relating to educational grants.
McGill, age 60, of Tallahassee, Florida, entered her guilty pleas during the third day of her jury
trial in United States District Court in Panama City, Florida. During the first two days of trial, a
jury heard testimony from 21 witnesses and received 255 exhibits in evidence. The testimony at
trial indicated that McGill stole funds provided by the United States Department of Education
through the Florida Department of Education for educational literacy grants provided to FAMU
for Calhoun, Franklin, Gadsden, Gulf, Union and Washington counties. She used these literacy
grant monies to pay individuals and entities for goods and services not related to or authorized by
the educational grants. She also fraudulently took grant monies from the 21st Century
educational grant in Franklin County, claiming these monies as payment for drafting and
submitting the grant application, despite being advised that no grant monies could be expended
for this purpose. McGill used educational grant monies in Calhoun and Franklin Counties to pay
Institute and State of Florida employees for work unrelated to the educational grants, including
overtime and bonuses. McGill also required certain educational grant recipients to kick back
portions of the grant monies to her and to disguise these monies as “consulting” fees for the
grants. McGill also required the grant recipients to falsely report that the grant monies were
earned for work related to the grants. To conceal the fraud, McGill caused fraudulent invoices to
be submitted to grant recipients.
The defendant faces a maximum total term of imprisonment of 75 years’ imprisonment and fines
totaling $1,750,000. Sentencing will be held in Panama City on October 1, 2008 at 9:00 a.m.
This successful prosecution is the result of a three-year investigation by the Federal Bureau of
Investigation, the Office of Inspector General for the United States Department of Education, and
the State of Florida Department of Financial Services. United States Attorney Miller
commended the tireless efforts of investigators involved in this complex investigation. United
States Attorney Miller stated, “the theft of federal educational and literacy funds by individuals
entrusted with distributing those funds to those in need, is a grave abuse of the public trust. This
office, along with the Federal Bureau of Investigation, the Inspector General for the Department
of Education, and the Florida Department of Financial Services, will vigorously investigate and
identify those individuals who steal and divert educational grant monies from the intended
recipients. Theft of public grant funds and fraud committed against the taxpayers and federal
programs remains a priority with the Department of Justice.”
The case was prosecuted by Assistant United States Attorney Stephen Kunz.
Top
Printable view
Share this page
Last Modified: 06/20/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov